<html>
<title> - HOW AMERICA LEADS ABROAD: AN EXAMINATION OF MULTILATERAL DEVELOPMENT INSTITUTIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      HOW AMERICA LEADS ABROAD: AN
                      EXAMINATION OF MULTILATERAL
                        DEVELOPMENT INSTITUTIONS

=======================================================================

                                 HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                     INTERNATIONAL DEVELOPMENT AND
                            MONETARY POLICY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2019

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-65
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
47-473 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             ANN WAGNER, Missouri
GREGORY W. MEEKS, New York           PETER T. KING, New York
WM. LACY CLAY, Missouri              FRANK D. LUCAS, Oklahoma
DAVID SCOTT, Georgia                 BILL POSEY, Florida
AL GREEN, Texas                      BLAINE LUETKEMEYER, Missouri
EMANUEL CLEAVER, Missouri            BILL HUIZENGA, Michigan
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                SCOTT TIPTON, Colorado
JOYCE BEATTY, Ohio                   ROGER WILLIAMS, Texas
DENNY HECK, Washington               FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
RASHIDA TLAIB, Michigan              TED BUDD, North Carolina
KATIE PORTER, California             DAVID KUSTOFF, Tennessee
CINDY AXNE, Iowa                     TREY HOLLINGSWORTH, Indiana
SEAN CASTEN, Illinois                ANTHONY GONZALEZ, Ohio
AYANNA PRESSLEY, Massachusetts       JOHN ROSE, Tennessee
BEN McADAMS, Utah                    BRYAN STEIL, Wisconsin
ALEXANDRIA OCASIO-CORTEZ, New York   LANCE GOODEN, Texas
JENNIFER WEXTON, Virginia            DENVER RIGGLEMAN, Virginia
STEPHEN F. LYNCH, Massachusetts      WILLIAM TIMMONS, South Carolina
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
           Subcommittee on National Security, International 
                    Development and Monetary Policy

                  EMANUEL CLEAVER, Missouri, Chairman

ED PERLMUTTER, Colorado              FRENCH HILL, Arkansas Ranking 
JIM A. HIMES, Connecticut                Member
DENNY HECK, Washington               PETER T. KING, New York
BRAD SHERMAN, California             FRANK D. LUCAS, Oklahoma
JUAN VARGAS, California              ROGER WILLIAMS, Texa
JOSH GOTTHEIMER, New Jersey          TOM EMMER, Minnesota
MICHAEL SAN NICOLAS, Guam            ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JOHN ROSE, Tennessee
JENNIFER WEXTON, Virginia            DENVER RIGGLEMAN, Virginia, Vice 
STEPHEN F. LYNCH, Massachusetts          Ranking Member
TULSI GABBARD, Hawaii                WILLIAM TIMMONS, South Carolina
JESUS ``CHUY'' GARCIA, Illinois
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    November 13, 2019............................................     1
Appendix:
    November 13, 2019............................................    33

                               WITNESSES
                      Wednesday, November 13, 2019

Daar, Nadia, Head of Washington, D.C Office, Oxfam International.     7
Debevoise, Eli Whitney II, Partner, Arnold & Porter LLP..........    12
Kenny, Charles, Senior Fellow, Center for Global Development.....    11
McGuire, Matthew, Vice Chairman, CapZone Impact Investments......     5
Schwarz, Jolie, Policy Director, Bank Information Center.........     9

                                APPENDIX

Prepared statements:
    Hill, Hon. French............................................    34
    Daar, Nadia..................................................    39
    Debevoise, Eli Whitney II....................................    51
    Haarsager, Mathew............................................    57
    Kenny, Charles...............................................    60
    McGuire, Matthew.............................................    64
    Schwarz, Jolie...............................................    67

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Clarification note regarding the Center for Global 
      Development................................................    75
Cleaver, Hon. Emanuel:
    Article from devex.com entitled, ``World Bank staff chastise 
      the board over lack of diversity,'' dated November 7, 2019.    78
    Article from foreignpolicy.com entitled, ``Trump Is Beijing's 
      Best Asset,'' dated October 15, 2019.......................    82
    Letter from the executive directors representing Sub-Saharan 
      Africa countries on the executive board of the World Bank 
      Group, dated November 11, 2019.............................    87
Garcia, Hon. Jesus ``Chuy'':
    Written responses to questions submitted to Eli Whitney 
      Debevoise II...............................................    90
    Written responses to questions submitted to Matthew McGuire..    92
    Written responses to questions submitted to Jolie Schwarz....    95

 
                      HOW AMERICA LEADS ABROAD: AN
                      EXAMINATION OF MULTILATERAL
                        DEVELOPMENT INSTITUTIONS

                              ----------                              


                      Wednesday, November 13, 2019

             U.S. House of Representatives,
                 Subcommittee on National Security,
                          International Development
                               and Monetary Policy,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2128, Rayburn House Office Building, Hon. Emanuel Cleaver 
[chairman of the subcommittee] presiding.
    Members present: Representatives Cleaver, Perlmutter, 
Sherman, Vargas, Gottheimer, Garcia of Illinois; Hill, 
Williams, Emmer, Gonzalez of Ohio, and Riggleman.
    Ex officio present: Representative Waters.
    Chairman Cleaver. The Subcommittee on National Security, 
International Development and Monetary Policy will come to 
order. Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time. Also, without 
objection, members of the full Financial Services Committee who 
are not members of this subcommittee are authorized to 
participate in today's hearing.
    Welcome to the hearing, and we appreciate the presence of 
all of you who are here.
    Today's hearing is entitled, ``How America Leads Abroad: An 
Examination of Multilateral Development Institutions.''
    Before we go any further, let me just begin by welcoming, 
as the ranking member of this subcommittee, someone with whom I 
am very pleased to work, Congressman French Hill. I look 
forward to working with you over the next year, or maybe 
longer.
    I am eager to partner with our new ranking member on 
special subcommittee issues. And there are some issues that 
have historically been bipartisan, and I intend to conduct 
myself in a manner that would allow them to continue to be 
such. I am confident that together we will continue the 
tradition of shared focus and collaboration. So, welcome.
    I now recognize myself for 4 minutes to give an opening 
statement.
    Let me also just tell you that there is a visible absence 
of the media here, and we can understand why they are not here 
today. So, we will proceed anyway.
    I am very excited to convene this hearing, exploring an 
issue our committee does not regularly discuss: international 
development.
    Development finance is a powerful tool in advancing the 
strategic and national security aims of the United States. 
Today, the threats that face the world are not just at 
America's doorstep; they are in our homes. We are in a heated 
trade war that is gripping both agricultural heartland and 
consumers around the country.
    In my home State of Missouri, for example, only 6 percent 
of about 306,000 acres are being used for soybean planting. We 
have 5.1 million soybean acres, and we are using 306,000. That 
gives you an idea of how troublesome this whole issue of trade 
is with our agricultural community.
    The headwinds present a risk to the economic outlook of the 
United States and the rest of the world. It limits our capacity 
to assist our smaller partners, leaving them more vulnerable. 
And as this pressure mounts, so, too, does the desire by our 
competitors and adversaries to displace our country as stewards 
of global order, regional stability, and balanced growth.
    As a member of the Helsinki Commission, I visited and heard 
from countries beset by China's debt trap diplomacy, a practice 
which targets fragile developing countries with promises of 
investment and needed projects, only to face predatory loans 
and then leave them worse off.
    In South Asia, China's harmful loan terms forced Sri Lanka 
to sign over its critical ship import for 99 years, potentially 
to be used for Chinese naval basing.
    In Africa, China has successfully set up an overseas base 
in Djibouti. In this very same country, the debt to China has 
risen to 80 percent of their GDP.
    Multilateral development institutions, such as the World 
Bank, have served as invaluable tools in relieving pressure on 
the U.S. to confront these disturbing trends. The World Bank 
has allowed us to join our international partners to uplift 
those who need development assistance, most without ceding 
ground as a global leader. From its work on infrastructure 
projects, to its response to the Ebola crisis, the World Bank 
has helped confront the needs of the world.
    The Bank also carries some of the greatest bang for the 
American buck. According to the Department of the Treasury, 
every U.S. dollar paid in capital leads to $25 in lending.
    I am pleased that we have before our committee the Treasury 
Department Secretary's authorization request for the world. As 
important as this institution is in global development, it is 
imperfect and requires thoughtful reform.
    I continue to look down to see if the Chair of the Full 
Financial Services Committee, Chairwoman Waters, is coming in, 
to give her the final minute, so I will recognize her when she 
comes in.
    I now recognize the ranking member of the subcommittee, the 
gentleman from Arkansas, Mr. Hill, for an opening statement.
    Mr. Hill. Thank you, Mr. Chairman. Thank you for your kind 
words. I, too, look forward to working with you. We have had a 
great working relationship on this committee over the past 5 
years. I particularly have enjoyed my work on the Terrorism and 
Illicit Finance and Monetary Policy Subcommittees in past 
Congresses, and I look forward to working with you in the 
balance of this Congress on these important topics. I am glad 
we are going to examine the multilateral development 
institutions today.
    Since 1945, the World Bank has been supporting low- and 
middle-income countries by providing access to financing to 
alleviate poverty, and promote economic development, and over 
that time, the United States has approved capital increases 4 
times: 1959; 1979; 1988; and 2010. This is the fifth time an 
Administration is seeking congressional approval for a capital 
increase.
    The Trump Administration has proposed an additional paid-in 
capital of $1.2 billion for the IBRD and $5.5 billion for the 
International Finance Corp. Both would be financed by other 
countries around the world. Regardless of where the funding 
comes from, both of these amounts of money approved require 
congressional approval.
    As a part of that approval process, the Administration has 
initiated several reforms that they are in the process of 
implementing, such as limiting World Bank lending to higher-
income countries, capping overall salary growth, and achieving 
expense savings. These reforms are tantamount to ensuring that 
the Bank continues to perform effectively and fairly.
    One of my goals for this subcommittee is to ensure that the 
World Bank and other multilateral development banks are using 
U.S. resources in a transparent, corruption-free, effective 
manner before committing U.S. taxpayer funds to these 
institutions. The U.S. must use its leadership at the Bank to 
fight for an end to corruption and to make sure that all 
lending is conducted with accountability.
    To that end, I want to discuss China and their access to 
the World Bank. China technically crossed an important World 
Bank income threshold in 2016, which was supposed to begin a 
discussion on graduation from Bank assistance. However, the 
country has received more than $7.8 billion in funding since 
that time. China continues to borrow an average of $2 billion 
per year from the Bank.
    Even more concerning to this subcommittee is, we often are 
not confident where those loan proceeds are being used. For 
example, is part of that money likely being used as a part of 
China's Belt and Road Initiative?
    In my opinion, the lack of oversight in dissemination of 
funds to a more developed country like China, with $3 trillion 
in reserves, is not acceptable. I know that others on my side 
of the aisle share this view. The lending number needs to be 
wound down and eventually get to zero.
    The United States needs to ensure there is greater 
transparency in how the Bank's money is disseminated and have 
stricter guardrails on its use. That includes both the Bank and 
the IDA. There are concerns of lack of competition for certain 
lending proposals with that arm of the World Bank.
    So, Mr. Chairman, I look forward to working with you on 
these important issues. I thank you for the time, and I look 
forward to our discussion today. I yield back.
    Chairman Cleaver. I now yield to the gentlewoman from 
California, the Chair of the Full Committee, Chairwoman Waters, 
for such time as she may consume.
    Chairwoman Waters. Thank you so very much, Chairman 
Cleaver. I appreciate that.
    In 1993 and 1994, I sat on the International Subcommittee 
of what was then the Banking Committee at a time when a number 
of people wanted to abolish the World Bank and the IMF because 
they believed that the institutions were indifferent to human 
needs and values such as worker rights, income distribution 
effects, and the protection of the environment.
    We made a good deal of progress enforcing change, including 
especially the creation of the Inspection Panel. And in doing 
so, we rescued the World Bank, as well as the IMF, from a 
reactionary and unenlightened viewpoint that made them 
legitimate targets. It took a while, but we were able to make 
them more relevant, and more important, not just on the 
particular issues we care about, but on their capacity to do 
better work. So, I am very proud to have been part of that, and 
I look forward to continuing to engage on these issues as we 
consider the authorization request before us today.
    Let me just say that there is a long history of people 
saying that certain things are immovable, that some things 
cannot change, but those things do, in fact move, and do 
change.
    Mr. Chairman, I want to hear about some discussion that has 
been going on about IDA and the proposals to invest in IDA, 
taking funds from the IDA appropriation, I believe. That is a 
serious discussion.
    And when we talk about these countries that need so very, 
very much, we have to really understand whether or not some of 
these proposals, like coming from the IFC, whether or not it is 
real and whether or not we are taking away money that should be 
going to support some very basic things in these poor countries 
in an effort to support business and privatization.
    We are not against business, but we have to take a look at 
the history and the record of those who claim to want to invest 
and what they have done in the past, whether or not they have 
been successful, or whether or not they have actually failed. 
And we have to take a look at whether or not the capability is 
there to identify certain projects that can be done; or whether 
or not this is kind of like pie-in-the-sky proposals that would 
be given to IFC to proceed in a manner that is not a manner 
that is proven to be successful.
    I will not say any more. I am going to listen. And I yield 
back the balance of my time.
    Chairman Cleaver. Thank you.
    Today, we welcome the testimony of five witnesses. Our 
first witness is Matthew McGuire, who currently serves as the 
president of CapZone Impact Investments. Prior to joining 
CapZone, Mr. McGuire spent nearly a decade in public service, 
largely focused on increasing economic development through 
private investment, including as U.S. Executive Director of the 
World Bank under the Obama Administration.
    The second witness is Nadia Daar, who is the head of the 
Washington, D.C. office of Oxfam International. Ms. Daar has 
several years of experience working with civil society in the 
Middle East and North Africa regions, as well as in North 
America on social and economic justice. She has also promoted 
the adoption of inclusive, accountable, and sustainable 
development among international financial institutions.
    The third witness is Jolie Schwarz, who is a policy 
director at the Bank Information Center. Ms. Schwarz is a human 
rights attorney and has focused on development policy reform at 
the international financial institutions, with a focus on 
social inclusion and accountability. She has experience working 
to promote the rights of the most marginalized through legal 
advocacy and policy reform.
    The fourth witness is Charles Kenny, who is a senior fellow 
and the director of technology and development at the Center 
for Global Development. His current work focuses on gender and 
development, the role of technology and development, 
governance, and anticorruption, and the post-2015 development 
agenda. Mr. Kenny is also a former World Bank employee.
    Our final witness, E. Whitney Debevoise, is a partner at 
Arnold & Porter. Mr. Debevoise's practice involves 
international financial transactions, public policy, 
international arbitration, multi-jurisdictional litigation, 
banking, and international trade. Mr. Debevoise rejoined the 
firm in 2010, having served as U.S. Executive Director of the 
World Bank in 2007 under President George Bush.
    Thank you all for being here today.
    Mr. Debevoise, we know that you have a hard stop at 11:30, 
so we will try to make sure that you are able to get out at 
that point in time.
    You will each be recognized for 5 minutes for an oral 
presentation of your testimony. And without objection, your 
written statements will be made a part of the record.
    Thank you very much. We will begin with Mr. McGuire. You 
are now recognized for 5 minutes.

  STATEMENT OF MATTHEW MCGUIRE, VICE CHAIRMAN, CAPZONE IMPACT 
                          INVESTMENTS

    Mr. McGuire. Thank you, Chairman Cleaver. I appreciate it. 
Ranking Member Hill, I appreciate you having us here, as well. 
Chairwoman Waters, it's always a pleasure to hear you speak and 
to be in front of you, as well, so thank you for joining today.
    I also should just say that it is a pleasure to be here 
with such a distinguished group of co-panelists, as well, with 
such a diverse range of opinions, and I look forward to this 
discussion.
    I have submitted my testimony. Rather than read that, I 
would like to address a couple of things that Chairwoman Waters 
raised. And then I would like to speak, if I could, to the 
larger context in which I see American support for the World 
Bank being central.
    Let me start with the latter, and it is just to say that in 
the context of economic development broadly around the world, I 
think it is very important to state the obvious, which Ranking 
Member Hill alluded to, which is that countries around the 
world are looking in two directions and trying to figure out 
how to grow and how to align themselves over time.
    One option is towards the view that America has held 
historically in the World Bank as champion, which is having a 
rules-based international order with free markets and not 
having a state-led economy that centralizes decision-making and 
controls business, and so on.
    The other model is one that has had great success in China 
over the last 20 years, and their state-led authoritarian model 
of economic development is one that looks attractive to a lot 
of countries around the world right now because China has been 
able to pull so many of their people out of poverty.
    What I think is important to remind ourselves is that, in 
this context, the Bank is very much a champion and advocate for 
opening markets up, to liberalizing economies, to moving away 
from state-led, state-owned enterprises and other state-led 
endeavors to drive economic growth over time.
    The Bank understands that the historical record and the 
evidence is quite clear, that that model has not worked very 
well over the decades, whether in Latin America, Eastern 
Europe, Africa, or any number of other places.
    I think what we need to understand is that the Bank is seen 
around the world as having the imprimatur of the United States, 
carrying the values of our approach to economic development and 
the values that have driven our success and growth over time.
    And, so, I do strongly encourage this committee to 
authorize the capital increases because the Bank can be a 
powerful tool as we think about our influence globally and we 
think about helping more people around the world come out of 
poverty and have healthier, more sustainable lives in the 
decades ahead.
    If I may, Chairwoman Waters, address your question around 
the private sector, I agree that we always need to have 
accountability, and we have to be evidence-based in thinking 
about how we make decisions here.
    I would say that foremost for me, when I was serving the 
country as the U.S. Executive Director at the Bank, what really 
struck me is how much the Executive Directors and 
representatives of emerging countries really wanted more 
private sector involvement. They often said, ``We need to 
figure out how to get more investment in our countries. We 
cannot do it alone as a government for a range of reasons.''
    And central to the whole effort to move from billions in 
aid to trillions in capital inflows, central to that thinking 
at the Bank has been pulling more private investors into 
markets they otherwise would not go to.
    So, what I would say about the private sector window for 
IDA is two important things. One, the previous replenishment of 
IDA was to the tune of $35 billion or $37 billion; I cannot 
remember exactly what it was. This last one, which includes the 
private sector window, was at $75 billion. So, because we 
issued that against IDA for the very first time, we were able 
to double the amount of money that was going to these poorer 
and more fragile countries around the world.
    Within that, $2.5 billion, as you know, was set aside for 
the International Finance Corporation (IFC) to create a private 
sector window. And it was quite targeted, but it was also 
thought of as a first step. So, for example, one of the 
instruments that was created was one to help with currency 
fluctuations. That is one of the primary reasons a lot of 
investors do not want to invest in poorer countries is they are 
worried about the currency and getting their money back out.
    So, it was quite targeted, it was narrow, and I think I 
would suggest that we give it time to see how it works. But I 
would emphasize that it was a small portion of a much bigger 
pie in the last go-round, and that IFC has quite a good track 
record over time of moving into markets where others do not. 
And when IFC is there--and I have seen this personally as I 
have traveled around the world--it is the imprimatur of the 
Good Housekeeping seal of approval that other investors are 
more willing to come into those projects or come into those 
countries where they might not otherwise.
    So, I will stop there, and I am happy to talk in more 
detail. But again, I think it is very important that we do 
think about this from an evidence-based perspective, but also 
that we listen to the countries who are receiving this capital. 
And when they say it is fundamental to have greater private 
sector inclusion, I think we should endeavor to follow through 
on that.
    [The prepared statement of Mr. McGuire can be found on page 
64 of the appendix.]
    Chairman Cleaver. Thank you, Mr. McGuire.
    Ms. Daar, you are now recognized for 5 minutes.

  STATEMENT OF NADIA DAAR, HEAD OF WASHINGTON, D.C., OFFICE, 
                      OXFAM INTERNATIONAL

    Ms. Daar. Thank you, Chairman Cleaver, Chairwoman Waters, 
Ranking Member Hill, and members of the committee. Thank you 
for the opportunity to testify on behalf of Oxfam.
    We are an international relief and developmental 
organization committed to fighting the injustice of poverty and 
inequality, and we work in more than 90 countries.
    My office is responsible for Oxfam's engagement and 
advocacy on the World Bank Group. I believe this institution 
plays a critical role in developing countries, and I believe 
wholeheartedly in its mandate to eliminate extreme poverty and 
boost shared prosperity.
    I also believe it is a role of civil society to raise flags 
when we see the institution making choices that undermine its 
mandate or cause harm to vulnerable communities. To that end, 
my testimony focuses on recent and concerning trends in the 
World Bank Group's education and financial sector portfolios.
    Despite much of the Bank's education work supporting 
governments to improve public education, we are deeply 
concerned about the poverty and inequality impact of the 
institution's increasing support for profit-driven commercial 
schools. The International Finance Corporation (IFC) has 
quadrupled its investments in for-profit primary and secondary 
schools in recent years, while over one-fifth of the 
International Bank for Reconstruction and Development's 
(IBRD's) and the International Development Association's (IDAs) 
projects include support for public-private partnerships 
(PPPs), that use public funding to support private education.
    And it is not just a project here and there that we worry 
about. Our analysis finds that the World Bank is actively 
advising governments to expand the private education provision. 
We have particular concerns around support for so-called low-
fee private schools, because no matter how small the fee is, 
they are simply unaffordable for the poorest families. In 
Ghana, a poor family will spend 40 percent of its household 
income to send just one child to one of these schools. Evidence 
shows that girls disproportionately lose out as parents are 
forced to choose which child to send.
    When it comes to quality, the evidence shows that these 
schools cut costs by relying on unqualified teachers, who are 
paid dismal salaries. This flies in the face of the World 
Bank's own evidence that the presence of a trained and 
qualified educator is one of the most important factors for 
achieving strong learning outcomes. These schools also have a 
track record of resisting government regulation and educational 
standards.
    Mr. Chairman, the lessons from around the world could not 
be clearer. Pushing profit-driven and market-based alternatives 
to a public education system creates educational segregation 
and exacerbates educational inequalities and wider social 
inequalities. Education is a right, not a market commodity. 
Investing in free and inclusive public education of good 
quality is the best way to ensure fulfillment of education for 
all.
    The World Bank Group should urgently redouble its focus on 
supporting countries to expand and improve the public and free 
provision of education. Our strong recommendation is that the 
IFC stop funding for-profit commercial schools at the basic 
education level, that is K through 12.
    It is morally outrageous for companies to be making a 
profit on the backs of poor families who are sacrificing other 
basic needs to pay fees. And it is even more morally outrageous 
for development finance to support that.
    Let me now turn quickly to the financial sector. As you are 
aware, the IFC lends money directly to private sector 
companies, but it is increasingly lending money to financial 
institutions such as commercial banks and private equity funds, 
which then on-lend to companies. As of 2018, Oxfam's research 
finds that 55 percent of the IFC's portfolio is invested in 
these financial intermediaries, or FIs. That was a whopping 
$6.4 billion. Ninety percent of that portfolio is made up of 
commercial banking clients.
    The challenge is an utter lack of information about where 
the money ends up once the IFC gives it to these 
intermediaries, and hence, what is the real impact that 
follows, be it good or bad. Oxfam and others have done in-depth 
research exposing the IFC's connection to several highly 
problematic projects through its FI clients, including in 
Honduras and in the Philippines, cases where the communities 
are suffering from unmitigated risks, loss of livelihoods, 
forced evictions, human rights abuses, and in some cases, 
murders with impunity.
    Lack of disclosure about IFC's FI subprojects means a 
complete lack of accountability. The need for information is 
real and urgent for communities who are facing day-to-day 
suffering to know their rights as provided for in the 
performance standards of the IFC and to know how to seek 
recourse at the IFC if harm is done.
    The U.S. has been a champion for strong environmental and 
social standards for transparency and accountability at the 
Bank over the years, and we ask you to continue that leadership 
to promote systematized and required disclosure of financial 
intermediary subprojects. There is a voluntary initiative, 
which was recently announced by the IFC, but this must 
absolutely be a stepping-stone towards a requirement for the 
disclosure.
    Finally, considering the discussions around IDA's private 
sector window, we propose banning the use of this window to 
finance any for-profit schools, as well as mandating the 
disclosure of subproject information and any financial 
intermediary investments made through the window.
    Thank you.
    [The prepared statement of Ms. Daar can be found on page 39 
of the appendix.]
    Chairman Cleaver. Thank you, Ms. Daar.
    Ms. Schwarz, you are now recognized for 5 minutes.

     STATEMENT OF JOLIE SCHWARZ, POLICY DIRECTOR, THE BANK 
                       INFORMATION CENTER

    Ms. Schwarz. Chairman Cleaver, Ranking Member Hill, good 
morning, and thank you for the opportunity to testify today.
    My name is Jolie Schwarz, and I am the policy director at 
the Bank Information Center (BIC). BIC is an organization which 
monitors and influences the policies and operations of the 
World Bank Group and other international financial 
institutions.
    IFIs like the World Bank Group underpin the global 
financial system. These IFIs set standards for other major 
players in the broader development community, especially in 
terms of transparency and accountability. In large part, this 
is due to the history of leadership by the U.S. Government and 
Congress, both of which have worked for decades to encourage 
the adoption of strong social and environmental standards and 
independent accountability mechanisms.
    The World Bank Inspection Panel and the Compliance Advisor 
Ombudsmen provide critical pathways for impacted communities to 
raise concerns and ensure that projects supported by U.S. 
taxpayers do not destroy the environment or undermine human 
rights.
    The current review of the inspection panel toolkit and the 
recently commenced accountability review at the IFC present 
clear opportunities for the U.S. Government and Congress to 
encourage the Bank to adopt specific structural reforms, 
including: number one, the addition of monitoring and dispute 
resolution functions to the inspection panel toolkit; and 
number two, the creation of a remedy fund at the IFC.
    Congress generally, and this subcommittee in particular has 
historically played a critical role in strengthening 
accountability at the World Bank. The panel was created in 1993 
in the wake of the Bank's withdrawal from the hugely 
controversial Sardar Sarovar Dam on the Narmada River in India. 
A hearing by this committee contributed to the growing 
recognition that a lack of accountability in the Bank's 
approval culture had eclipsed its focus on development 
outcomes.
    Congress took a number of other steps. Most critical among 
those was Congressman Barney Frank using the authorization 
authority of this subcommittee to ensure the Panel was 
established. One of the Panel's most recent investigations 
highlights its value in enhancing the Bank's development 
outcomes. In that case, the Panel documented failures 
associated with the World Bank-financed road project in which 
dozens of girls in rural Uganda were victims of sexual 
exploitation and abuse. The Bank responded by adopting sweeping 
reforms and initiatives to improve the institution's response 
to gender-based violence and child exploitation and abuse. 
This, in turn, has catalyzed significant change across the 
development finance landscape.
    Over 2 years ago, the World Bank board of directors 
initiated a process to modernize the inspection panel by adding 
additional functions to its toolkit. The United States 
Government has done a great deal to push the board to adopt the 
proposed functions. However, the board's inability to come to a 
consensus calls into question its commitment to strengthening 
accountability at the institution.
    At a time when civic space is closing and evermore 
restricted around the world, it is critical that the World Bank 
board brings its accountability system in line with similar 
institutions across the development finance landscape by: 
first, giving it the authority to monitor how the Bank responds 
to the Panel's investigations; and second, by offering affected 
communities and project proponents the opportunity to seek 
dispute resolution through the Panel's offices.
    While the review of the inspection panel's toolkit 
continues, the board has also commenced a review of the 
accountability system at the IFC, including the CAO. The CAO 
had generally operated with less controversy and resistance 
from management than the Panel, but in recent years, IFC began 
to raise more objections to the CAO's compliance findings, and 
in some cases, appeared to ignore the findings altogether. This 
trend was exemplified by IFC's inaction with regard to the 
CAO's findings on the Tata Mundra coal-fired power plant 
complaint.
    With nowhere else to turn, communities took the unusual 
step of suing the IFC in Federal court in the United States. As 
part of the response to this lawsuit, the CEO of the IFC, 
Philippe Le Houerou, has taken some welcome steps to improve 
the IFC's record in managing environmental and social risks of 
its projects, but more is needed to strengthen IFC's response 
to the CAO process and to enable remedy when harm occurs.
    Establishing a community remedy and response fund is 
necessary to protect communities from bearing the 
disproportionate environmental and social risks of IFC finance 
projects. As the Bank engages in evermore challenging context, 
Congress also has an important oversight role to play to ensure 
that the institution has the tools and resources it needs to 
continue setting high standards for the broader development 
community, and to ensure that all people are able to benefit 
from its projects and programs.
    Thank you.
    [The prepared statement of Ms. Schwarz can be found on page 
67 of the appendix.]
    Chairman Cleaver. Thank you, Ms. Schwarz.
    Mr. Kenny, you are recognized now for 5 minutes.

 STATEMENT OF CHARLES KENNY, SENIOR FELLOW, CENTER FOR GLOBAL 
                          DEVELOPMENT

    Mr. Kenny. Thank you, Chairman Cleaver, Ranking Member 
Hill, Chairwoman Waters, and members of the committee. Thank 
you very much for the opportunity to testify this morning.
    My name is Charles Kenny, and I am a senior fellow at the 
Center for Global Development, a think tank in Washington, D.C.
    I would like to make two main points. First, the World Bank 
Group is a powerful force for global development. It has 
benefitted from U.S. leadership and support. Second, the IFC, 
the World Bank Group's private sector arm, needs reform if it 
is to deliver more in the countries that need its help the 
most.
    As you know, the World Bank Group is a central component of 
the multilateral financial architecture that has supported 
global development and furthered U.S. interests in a stable, 
secure, and prosperous world. Between them, the World Bank and 
the IFC support the two vital pillars of development: an 
effective government; and a robust private sector.
    The Bank Group leveraged U.S. support to commit $62 billion 
in development financing in 2019, operating at a scale and 
across a range of countries and sectors that the U.S. is unable 
to achieve alone. Continued American leadership and financial 
support in the World Bank Group should be a high priority.
    At the same time, as Ms. Schwarz mentioned, historically, 
the U.S. Congress, and this committee in particular has played 
an important role in ensuring that the World Bank Group's 
activities support development that respects rights and the 
environment, and targets some of the most vulnerable people in 
the world.
    In that regard, the recent performance of the World Bank 
Group's private sector arm is concerning. Fragile and conflict-
afflicted states accounted for less than 5 percent of IFC 
commitments, and low-income countries accounted for just 2.6 
percent of commitments in 2016--2.6 percent--and that compares 
to 25 percent in 2003. The problem is not so much a lack of 
cash as a lack of good projects.
    Nonetheless, the Bank Group's response has been to use $2 
billion of resources from IDA, the lending arm that usually 
finances governments in poor countries, to provide subsidies to 
firms involved in IFC investments. Simply applying subsidies 
does not significantly expand the pipeline of high-impact, 
private sector projects in developing countries that the IFC 
can support. Making matters worse, subsidies risk crowding out 
other development finance institutions, and that includes the 
new U.S. International Development Finance Corporation.
    The current use of subsidies by the IFC ignores common-
sense rules of effective private sector engagement developed by 
the World Bank Group itself. The Bank Group is a founder 
signatory to a set of principles that calls for subsidies to be 
driven by public sector priorities to be allocated fairly, on a 
level playing field, and to be transparent. In reality, IFC's 
use of subsidies meet none of these principles.
    The IFC needs a change in its fundamental model in order to 
increase its development impact in poorer countries and make 
best use of the capital increase. I agree with Mr. McGuire that 
poorer countries need more private investment, but this current 
approach of the IFC is not working to deliver that.
    Regarding subsidies, as a matter of routine, the IFC should 
use competitive approaches or open offers to allocate. For any 
non-competitive subsidy awards that remain, the size of a 
subsidy should be capped at 10 percent or less of the total 
value of IFC support. That is a little less than half the 
average subsidy level reported on the projects that the IFC 
subsidized in 2017 and 2018. That is because the risks of 
subsidy are the greatest with these non-competitive allocation 
approaches.
    Subsidy terms should be transparent. The IFC has taken a 
first step by reporting subsidy estimates, but it should also 
report the market rate estimate from which the subsidy is 
calculated, the mechanism of subsidy calculation, and the 
economic justification for the subsidy. Again, the IFC should 
mandate disclosure of beneficial ownership and tax jurisdiction 
of investee firms as Congress has pushed for previously. As Ms. 
Daar mentioned, this should apply to sub-investees, as well.
    It is important that the U.S. shows leadership and 
commitment to multilateralism, including at the World Bank 
Group. I strongly support the U.S. taking part in the IBRD 
capital increase, both as a statement of continued leadership 
and commitment to multilateralism, and as an incredibly 
effective tool to leverage U.S. resources for global 
prosperity.
    At the same time, while an IFC capital increase under the 
current model will strengthen the institution as a tool for 
engagement in wealthier developing countries, with reforms, it 
could also have a significant impact in the world's poorest 
countries. U.S. support for a larger IFC should be matched with 
reforms for a better IFC.
    Thank you very much.
    [The prepared statement of Mr. Kenny can be found on page 
60 of the appendix.]
    Chairman Cleaver. Thank you, Mr. Kenny.
    Mr. Debevoise, you are recognized now for 5 minutes.

STATEMENT OF ELI WHITNEY DEBEVOISE II, PARTNER, ARNOLD & PORTER 
                              LLP

    Mr. Debevoise. Thank you, Mr. Chairman, Ranking Member 
Hill, Chairwoman Waters, and distinguished members of the 
subcommittee. It is an honor to appear before you today to 
speak about the authorization of capital increases for the 
World Bank and the IFC.
    It was mentioned, I think by the ranking member, that this 
is only the fifth opportunity for a capital increase at IBRD in 
its entire history, so these do not happen every year.
    It is also the case that the capital increase for IBRD 
which you are presented with is a reflection of the financial 
crisis that we went through back in 2008. At that time, the G-
20 called on the Bank to open the faucets and to help the rest 
of the world. And it did. It responded in kind.
    That, in turn, led to an increase in lending from a pace of 
about $13 billion a year to almost $34 billion a year. But that 
was obviously an unsustainable pace, and that led to the fourth 
capital increase request, which you had back in 2011. What you 
see now is a reflection of a further discussion about whether 
$34 billion a year or something less than that should be the 
new normal. And it was obviously not sustainable to maintain 
that higher pace.
    So, what has happened is, the United States Treasury has 
responded intelligently here. And I know there has been some 
concern expressed about the volume of lending to countries that 
are at or near the graduation level. This is an important 
subject, and the Treasury has engaged with the Bank and reached 
some understandings with the Bank about that. So, I think that 
is an important reform.
    As a shareholder of the Bank, the United States also has 
been a leader in dealing with the financial structure of the 
Bank, and we have always been a very strong advocate for 
watching the budget very carefully, looking at policies like 
loan pricing. And, in fact, with this capital increase comes a 
reform in loan pricing, which will now be differential pricing.
    When I was the Chair, there was a lot of talk about how we 
were a big co-op and everybody should pay the same. But I think 
the world has recognized that that needed to change, and that 
is one of the reforms which is in this package.
    The other point is that in any large institution, there is 
always room to take a close look at the budget and to make 
people accountable, and that has been done in this case, as 
well.
    There are new provisions that relate to salaries. I 
remember quite well. When I was the U.S. Executive Director, 
this Congress had the wisdom to limit my salary to the level of 
an Assistant Secretary of the Treasury, which was appropriate. 
I had no complaint about my salary, because for the average 
American, it was a very healthy salary. I have colleagues on 
the board who are earning substantially more because that was 
the standard salary. But the Bank has agreed to start to limit 
salaries, and to spend on personnel, which I think is another 
important item.
    There has been some discussion about the question of income 
transfers from the Bank to IDA not continuing, and the use of 
the private sector window at IFC as part of IDA. This 
represents 3.3 percent of the entire IDA18 commitment. I think 
that this is an experiment worth pursuing. And if you 
disaggregate some of the programs that are there, one of them, 
for example, is nothing other than the incorporation of 
Multilateral Investment Guarantee Agency (MIGA) insurance 
policies into IFC and IDA.
    When I was there, we were constantly pushing for IFC to do 
more in IDA countries and in fragile countries, and they 
responded. They stepped up. And I think that this window is an 
experiment worth pursuing. The countries are crying out for 
infrastructure, and this is an important initiative.
    Thank you.
    [The prepared statement of Mr. Debevoise can be found on 
page 51 of the appendix.]
    Chairman Cleaver. Thank you, Mr. Debevoise.
    I now recognize myself for 5 minutes for questions.
    Mr. McGuire, I would like to chat with you first. I would 
like to reference your time as Executive Director (ED) of the 
World Bank during the previous Administration, the Obama 
Administration, and the issue of ethnic diversity at the Bank 
and your willingness to address the issue.
    As we were preparing for the hearing today, our staff was 
trying to get a better understanding of the ethnic diversity of 
the Bank and could find very little information, very little 
reporting on that subject. And I believe that where there is 
little transparency, there is little trust. So, I have an 
article here, ``World Bank Staff Chastises the Board Over Lack 
of Diversity,'' and I would like to enter this into the record, 
without objection.
    Without objection, it is so ordered.
    This issue comes up year after year after year, and I think 
everybody has to struggle with the issue of inclusion, 
including Congress. But I do believe that a diverse workforce 
in the World Bank is extremely important, and only when we use 
all parts of our great mosaic are we at our best.
    Can you offer me some perspective, your perspective on the 
inclusion issue?
    Mr. McGuire. Certainly. Thank you for the question.
    There are several things I would say related to diversity 
at the Bank. I will separate the board from the staff.
    The board, of course, is a little more of a challenge 
because every country chooses whom they want to send forward, 
and so there is really nothing that the Bank itself can do in 
telling countries whom to send forward. And recall that while 
we, Whitney and I, represented the U.S. alone, other EDs will 
represent 10, 12, even 20 countries, and so there is a much 
more complicated calculus in terms of where those members 
select their EDs from. So, let's set the board aside.
    I think that the issue within the staff more broadly, and 
especially in various levels, the more senior levels, is an 
ongoing one. It is one that the Bank has talked about at the 
board level quite a bit, and it is one that I know senior 
management has talked about quite a bit.
    There are two things that I would say. One is that a little 
bit of a challenge that the Bank has is that they really pay 
attention to nations as opposed to ethnic minorities within 
nations. So, when someone comes forward for hire, they 
definitely track what country they are from for a number of 
reasons, some quite good. In certain countries, they are very 
wary of identifying people as an ethnic minority because those 
ethnic minorities could be disenfranchised in the home 
countries, or there are other reasons why people do not want to 
identify as such.
    The point is that it is only through self-reporting at this 
point at the Bank that people--let's say if they are an 
American hire, people have to choose to identify whether they 
are African American or European American or Latino American 
and so on.
    Chairman Cleaver. Excuse me. But you do agree that there 
should be a higher level of accountability and transparency?
    Mr. McGuire. Certainly. And I agree also with your 
fundamental premise that the more diverse staff you have, the 
better decisions one makes in a better range of perspectives.
    I would say, to that end, I know the Bank has been working 
on that for several years now. They have a partnership with 
Howard University, a Historically Black College in this town, 
of course, working with their law school, and they have had 
several dozen--I think it is 40--externs who have come to the 
Bank to get experience in international development. And, so, 
there are efforts underway that are led out of the corporate 
secretariat.
    So, it is something that the Bank cares about and has been 
moving on, but I agree it is something we need to keep pushing 
on to have greater transparency.
    Chairman Cleaver. Particularly, since the level of the 
participation of the United States in the Bank is high, or 
certainly higher than the other nations. And, so, if it is 
something we believe in, I think we ought to try to exploit it.
    Can you also speak to the critical need for development 
finance? And do you believe that the World Bank should be 
leveraging the private sector to help in areas of need?
    Mr. McGuire. I do, very much. And part of it just comes 
down to basic market demand. The challenge that a lot of IDA 
countries have is very few investors want to invest there. And, 
so, pulling them in requires incentives sometimes, and it 
requires risk mitigants that will make investments in those 
countries more attractive.
    I cannot think of a country at the Bank, IDA countries in 
particular, that does not want more robust private sector 
participation. So, while we need to make sure there are 
guardrails around that, we need to make sure that it is done in 
the right way. I do get wary when we try to take the judgment 
away from IFC itself in terms of what is possible in different 
countries, and we try to limit what they do, because it is hard 
as it is now, but they have a long track record of doing it and 
making a difference in low- to middle-income countries.
    Chairman Cleaver. Thank you.
    Mr. McGuire. They need to do more in true lower-income 
countries and in true fragile states, but it is very, very 
hard. There is very little market demand, so they have to be 
aggressive in how they pull people in.
    Chairman Cleaver. Thank you very much.
    The Chair now recognizes the distinguished ranking member, 
Mr. Hill, for 5 minutes.
    Mr. Hill. Thank you, Mr. Chairman. And I thank the 
witnesses. This is a good panel. I do hope, Mr. Chairman, that 
we can have the Treasury Department back. I am sorry our 
Treasury witness was under the weather today, but I think it 
would be good to have the Administration on the record for this 
issue.
    Chairman Cleaver. Yes.
    Mr. Hill. Thank you.
    Mr. Debevoise, thanks for being here, and I appreciate your 
service, too, as Executive Director. I want to turn to a 
subject that we have not touched on yet this morning, 
legislative mandates to the Treasury Department and our 
Executive Directors in determining and basically telling them 
how to vote in their role overseeing the Bank.
    Do you believe these mandates are supporting or hindering 
the Executive Director's effectiveness in advancing the United 
States' national interest? And keep your answer short, because 
I have several more questions.
    Mr. Debevoise. I think that, number one, it is important 
for the committee to understand that U.S. Executive Directors 
pay very close attention to these mandates. When I took the 
job, I was handed a 45-page manual of all of these mandates. I 
must say, some of them were contradictory. Sometimes, the price 
of metals is high, and sometimes, the price of metals is low. 
They are in surplus, or they are in short supply. And yet, we 
were directed to vote this way or that way on copper or this or 
that, and that did not seem to make a lot of sense.
    Mr. Hill. Thank you. Let me go on.
    Do you believe that list, the 45-page manual, is excessive?
    Mr. Debevoise. I believe that it could be reviewed from 
time to time and trimmed, yes.
    Mr. Hill. When was the last time it was reviewed, to your 
knowledge?
    Mr. Debevoise. Never.
    Mr. Hill. Thank you.
    One is a particularly well-known mandate because it is 
named in honor of our Speaker, Mrs. Pelosi, and this was 
adopted, I think some 30 years ago. It requires that the Bank 
report on environmental considerations 120 days before the Bank 
votes on a particular commitment. Whereas, over in the Ex-Im 
Bank, those same environmental concerns are done in 30 days. 
They have to be reported 30 days before the Ex-Im Bank reports.
    Can you comment on that particular mandate and its 
usefulness or challenges to our work?
    Mr. Debevoise. Yes, sir. The Pelosi Amendment was a very 
valuable addition to the toolkit. It was done at a time when 
communication was very different from what it is today. I think 
environmental impact statements were being posted on bulletin 
boards in countries, and now it is all over the internet. I 
would support a reduction from 120 days to 60 days for this 
mandate. The mandate itself, I think is important to keep.
    If we do not make that reduction, we give IFC, which has as 
its internal rule a 60-day mandate, the ability to embarrass 
the United States in its foreign policy whenever it desires. I 
had to vote against a loan for the Panama Canal expansion--our 
good ally, Panama--because notwithstanding the fact that the 
environmental impact statement had been done to the Queen's 
taste for more than a year, and Ex-Im Bank and IDB were also in 
the project, the IFC came late because of the financial crisis 
to replace private banks. It only went up 72 days, and I had to 
abstain.
    Mr. Hill. I think that is a good working example for our 
listeners to try to understand this. Many times we are asked to 
abstain based on a mandate, and then that weakens our 
negotiating ability in changing the terms of agreement.
    Mr. McGuire, do you agree with that?
    Mr. McGuire. Absolutely. And when our hands are tied, it 
limits the amount of diplomatic work we can do back and forth.
    The thing to keep in mind, as well, is that we may want 
that project to go forward. There may be a project down the 
road that someone else wants to go forward, and it is just like 
here in Congress. The ability to pull both levers and to get 
one thing done is a compromise for something else, and is core 
to having an effective U.S. Executive Director.
    Mr. Hill. That is good. Thank you both for your thoughts on 
that.
    Mr. Chairman, I do hope we can assist this whole mandate 
list and see if it can't be streamlined. And certainly the 
contradictory points that just pile up statutorily with no 
reform are frustrating the work of two fine gentlemen who 
carried on this responsibility.
    Mr. McGuire, you noted, and I thought it was interesting--
you were talking about the temporary facility about dealing 
with currency fluctuations that the Bank proposed. Isn't that 
really the International Monetary Fund's (IMF's) job?
    Mr. McGuire. Given the challenges in some of these 
countries, I think a lot of people need to pay attention to it. 
Where it specifically comes in is in helping investors who come 
in and invest in another currency to know that they have a 
hedge when they need to pull those back out, let's say back 
into dollars. So, it is just one more tool in the toolkit.
    The IMF certainly is trying to help at the macro level to 
stabilize currencies. But on a project-by-project basis, where 
you may invest today and you may exit in 2 to 3 years, if you 
do not know where the currency is going there and you have a 10 
or 15 percent drop, it is pretty limiting for a lot of 
investors and they pull back. The IMF is not going to come in 
at the project level, and so that happens.
    Mr. Hill. Thank you, Mr. McGuire, and I yield back my time, 
Mr. Chairman.
    Chairman Cleaver. The gentleman yields back.
    The Chair now recognizes the distinguished Chair of our 
full Financial Services Committee, Chairwoman Waters.
    Chairwoman Waters. Thank you very much, Mr. Chairman. I 
want to get back to where I started early on in my opening 
statement, dealing with the IFC and IDA. First, I want everyone 
to understand that we are not opposed to business. We believe 
in economic development. We would like to see the private 
sector perform, and so I want that to be clear.
    However, as I take a look at what is being proposed as a 
private lender from IDA with the proposal for $5.5 billion that 
would go to the IFC, and recognizing that, at one time, the IFC 
was giving $2.5 billion to IDA. So, it is a reversal here.
    And I also want to understand exactly what the performance 
has been. There was something that was put up just a moment ago 
that showed that IDA basically performed better than the IFC.
    I am also interested in knowing why we cannot understand 
those investments from the financial intermediaries that are 
used, like the big banks, why there is no transparency? We do 
not know what they do.
    To talk about this kind of enhanced appropriation without 
having a track record, without having transparency, why 
wouldn't they be coming with us with reforms now? Because with 
reforms, I think we could all get together. But without 
reforms, I don't see how we can.
    Let me just ask, who knows who the banks invest in, the 
fiscal intermediary that the IFC gives its money to? Do you 
know, Mr. Debevoise?
    Mr. Debevoise. This is something which is not known. The 
loan is made to the financial intermediary. And the IFC may 
keep track of how the recipient of the loan on-lends it, but 
that information is not made available.
    Chairwoman Waters. But we do not know whether or not they 
are investing in small businesses in certain areas and whether 
or not their investments are hurting or helping in some of 
these very needy countries, do we?
    Mr. Debevoise. I think, Madam Chairwoman, you can ask for 
more transparency or more information about that, but I think 
that it would be a big breach of faith with the board, 
certainly, if the IFC were not fulfilling the commitment that 
they make--
    Chairwoman Waters. Yes, of course, it would.
    Mr. Debevoise. --when they bring the loan to the board. The 
financial institution is supposed to use it for women-led 
businesses or minority businesses.
    Chairwoman Waters. Okay. Yes.
    Mr. Debevoise. Or small businesses.
    Chairwoman Waters. We know that, but we do not know that--
    Mr. Debevoise. And I am assuming that they are tracking--
    Chairwoman Waters. Reclaiming my time, we do not know that 
they do that. The private equity firms are transparent, is that 
correct? They do tell us where the money is going, where the 
money is invested, is that right?
    Mr. Debevoise. In my time at the Bank, there was not that 
much being done through the private equity windows, so I 
honestly do not know the answer to that question. I think 
asking for more information is legitimate.
    Chairwoman Waters. Very good. So, we need more 
transparency. That is extremely important.
    And I question the amount of the proposal--$5.5 billion is 
a lot of money. And the fact that the IFC does not give to IDA, 
the 2.5 that they were given is just--it is the reversal that 
concerns me.
    Mr. Chairman, what I would like to just kind of end with is 
this: Come with reforms. Come with reforms to tell us exactly 
how you are operating, who is benefitting from it, on and on 
and on, and let's see if we can get together on this. Without 
those kinds of reforms, I am just not interested in giving any 
support.
    With that, I yield back the balance of my time.
    Mr. McGuire. Madam Chairwoman?
    Could I address that, Chairman Cleaver?
    Chairman Cleaver. Yes, please.
    Mr. McGuire. Several things. I appreciate all of the points 
that you made, Madam Chairwoman.
    What I would say is that, as a person who was on the board 
when we put through this IDA replenishment, these new changes 
were a part of a broader set of reforms. This was, as I 
mentioned in my testimony, a follow-up to safeguard reforms we 
put in place to make sure there was greater accountability and 
higher standards. But the idea here was we were actually 
changing the way IOC was doing business by creating this 
private sector window.
    I would argue we need more time to see its effectiveness. 
But, again, because we also issued debt for the first time, we 
were giving much more money to IDA countries, so this is part 
of a range of reforms that we have made.
    And what I would say is that if we do not support it now, 
it weakens American leadership broadly. But also, I think what 
we want to do is make sure we are judging it over the full 
course of time, and then we can take another look at the next 
replenishment as opposed to restricting it too much now.
    Chairman Cleaver. Thank you, Mr. McGuire.
    The gentleman from both of my home States is recognized, 
Mr. Williams.
    Mr. Williams. Thank you, Mr. Chairman. You are always 
welcome in Texas.
    One of the newest multilateral development banks is the 
Chinese-led Asian Investment Infrastructure Bank, otherwise 
known as the AIIB. This bank was opened in 2016. Even though it 
is relatively young, the Chinese-led institution has already 
loaned more than $5 billion to projects in over 13 countries. 
It seems like the AIIB is simply an extension of China's Belt 
and Road Initiative.
    So, my question to you, Mr. McGuire is, can you talk about 
these differences between the AIIB and other MDBs as it relates 
to China, who appears to be using this institution to advance 
their own foreign policy agenda?
    Mr. McGuire. Sure. And it really goes to the fundamental 
difference between the World Bank and the AIIB in that the AIIB 
is quite explicitly supportive of Chinese state-owned 
enterprises doing a lot of this work.
    As I said earlier, the Bank's historical evidence, but also 
its orientation, is not to utilize state-owned enterprises and 
not to directly tie into a national interest of some sort like 
what China is doing on a bilateral basis through the Belt and 
Road Initiative.
    So, the Bank's approach is fundamentally different. And, 
again, that is why I think the support is so important because 
many countries that I have traveled to and I talked to, would 
much rather work with the American-led system. If we are not 
there, they will work with whomever is there. So, if we do not 
have a strong, robust World Bank offering our way of building 
economies, then they will turn to the other option.
    Mr. Williams. Okay. Thank you.
    In 2015, the World Bank suspended the Uganda Transport 
Sector Development Project due to sexual misconduct by Chinese 
contractors and the use of child labor. The Bank admitted that 
there was not proper oversight over this project. But in June 
2017, the World Bank lifted its suspension.
    Ms. Schwarz, you briefly mentioned the Uganda case in your 
testimony. Can you elaborate on what reforms have been 
implemented at the World Bank to ensure proper oversight so 
that these horrific incidences will never happen again?
    Ms. Schwarz. Sure. Thank you for the question.
    I think with respect to the Uganda Transport Sector 
Development case, as I mentioned in my testimony, it is also a 
really great example of how the current accountability system, 
the inspection panel specifically, is working well at the World 
Bank. Not only were they able to implement reforms in the 
context of that specific project on the ground in making sure 
that the people who were impacted, especially the children in 
the community, were able to access services, the Bank came in 
with supplemental projects afterwards and were able to help 
girls access life skills services, re-enter into school, and 
things like that. So, there were really important things that 
happened on the ground with respect to that project because of 
the accountability process.
    The broader sets of reforms that happened after that? As I 
mentioned, the Bank took the unusual step of actually reviewing 
its portfolio more broadly. Normally, in the accountability 
process, the focus is really on the specific project and on the 
people who were harmed in that specific project. In this case, 
they took a much broader approach looking at the entire 
portfolio. They put together a gender-based violence task 
force, which suggested many different reforms and how they can 
do this better along procurement policies, as well as in how 
they interact with their contractors, and how teams are looking 
to address and mitigate risks up front in the design of 
projects.
    Mr. Williams. Okay.
    Ms. Schwarz. There has been a lot of additional guidance 
and tools that have been made available now to Bank staff to 
make sure that they are looking for these problems up front, 
and they are able to put together mitigation plans that help 
address and prevent these risks.
    Mr. Williams. Okay. Thank you.
    Mr. Debevoise, I would like for you to discuss the role of 
trust funds at the World Bank. There has been bipartisan 
concern about the trust funds accountability compared to board-
approved assistance. So, I guess I would ask you, can you 
explain why trust funds are preferable to having board members 
direct funds to be allocated where they will have the greatest 
impact?
    Mr. Debevoise. Thank you, Mr. Williams. The trust fund area 
is an area which has grown tremendously. I think it now 
probably exceeds $25 billion. Trust funds come in all kinds of 
sizes. Many small countries use trust funds just as a 
substitute for their own development agency, and they 
essentially get the Bank to do the fiduciary work.
    And then there are some very large trust funds, like the 
Global Fund, which is absolutely fundamental in terms of public 
health around the world, and the U.S. is a strong supporter of 
it.
    There can always be more oversight of trust funds and more 
transparency, but I think this is also an area where perhaps 
some of the problem could be addressed by limiting the minimum 
size of the trust fund that the Bank is willing to accept 
because there is a proliferation of funds, and the fiduciary 
controls are obviously harder to impose the more trust funds 
you are managing.
    Mr. Williams. Thank you, and I yield back.
    Chairman Cleaver. The gentleman yields back.
    The gentleman from Colorado, Mr. Perlmutter, is now 
recognized for 5 minutes.
    Mr. Perlmutter. Thanks, Mr. Chairman.
    I have just some basic questions, but before I do that, Mr. 
Williams mentioned China. We have been looking at the screen 
that shows China's financial influence around the globe. Last 
night on the Rules Committee, we talked about the Export-Import 
Bank and whether or not they should be supporting state-owned 
organizations, businesses that might be owned by China. And I 
just want to enter into the record from foreignpolicy.com an 
article dated October 15, 2019. The title is, ``Trump is 
Beijing's Best Asset.''
    Chairman Cleaver. Without objection, it is so ordered.
    Mr. Perlmutter. My questions really are to the basic 
structure of this lending network that we have that came out of 
Bretton Woods many, many moons ago.
    To anybody on the panel, can you explain to me the lending 
in the international sphere, from America's point of view? We 
have the United States Agency for International Development 
(USAID). We have the Millennium Challenge Corporation (MCC). We 
have been talking about the International Development 
Association (IDA), the International Finance Corporation (IFC), 
the Export-Import Bank (Ex-Im), and the International Monetary 
Fund (IMF).
    So, in the spectrum, how do these things fit together? And 
then, I want to ask about a basic lending deal and why we do 
not know where the money goes specifically.
    Mr. McGuire, do you want to take a crack at it for me? Just 
sort of give me a primer on all of our lending entities and who 
they--USAID is to the poorest. And maybe you, Ms. Daar, can 
jump in, too?
    Mr. McGuire. Sure. And others may want to augment this.
    USAID gives grants as opposed to loans, largely for 
humanitarian interventions of various sorts. For example, in 
Northern Jordan, to help with the Syrian refugee crisis, they 
give direct grants there.
    Mr. Perlmutter. Millennium?
    Mr. McGuire. Millennium Challenge Corporation works with 
specific countries that are lower income and fit a certain set 
of standards. And what they do is they have an agreement. It is 
called a compact. If a country does X, Y, and Z, they get X 
amount of money.
    Mr. Perlmutter. So it is a loan agreement?
    Mr. McGuire. Yes. It is similar. Where the World Bank is 
different is that it is working with countries--almost every 
country in the world is a member. And what it is doing is 
targeting, through their expertise in conjunction with the 
ministers of finance largely, what specifically would help to 
build the economic development of that country. And then, it 
lends relatively cheap money to those countries for them to 
implement those programs with the Bank's help. So, it is a very 
hands-on way of helping countries to develop their economies 
and grow more quickly.
    Mr. Perlmutter. International Monetary Fund?
    Mr. McGuire. The International Monetary Fund is the 
firefighter that comes in when someone is in big distress, for 
example, Argentina, when they had their currency devaluation 
last year. The IMF goes in to try to shore things up and to 
provide capital necessary to stabilize things. So, it is much 
more the firefighter in the system.
    Mr. Perlmutter. Okay. Now give me a basic deal--and maybe I 
will turn to you, Mr. Debevoise--that the World Bank makes a 
loan through something, to somebody, for some purpose. How does 
it work?
    Mr. Debevoise. Thank you. Actually, I am not sure that I 
can give you a primer in the 5 minutes allotted because, within 
the World Bank Group, there are at least 3 different financial 
models.
    The IBRD has a very small amount of paid-in capital, and 
then they have a lot of callable capital, which this Congress 
has authorized.
    But the key word there is leverage. With USAID, there is no 
leverage. With MCC, there is no leverage. With IBRD, there is 
leverage, about 25 times. So, for every $1 we put in, we get 
$25 of lending.
    Mr. Perlmutter. Alright. So, give me a basic deal.
    Mr. Debevoise. So that is IDA. IDA is grants. IDA is not 
going to the market to raise money.
    IBRD, small capital, go to the bond market to raise the 
money that you lend.
    IDA is grants. That is an annual appropriation.
    IFC is private sector, but it has paid-in capital only. 
There is no callable capital at the IFC. There is leverage at 
IFC, but it is not as great as the leverage at IBRD.
    Mr. Perlmutter. When you say no callable capital, you 
cannot collect the loan? I'm sorry. I was a banking lawyer but 
I do not know what you are talking about.
    Mr. Debevoise. So, here is the point. This goes back to the 
founding of the Bank. The big concern was we have limited 
resources post-World War II. We are going to put in a small 
amount of capital. We are going to go to Wall Street and sell 
bonds.
    Mr. Perlmutter. Okay.
    Mr. Debevoise. So we get leverage, okay? Now, in order for 
those people to buy those bonds, they want to know that they 
are backed by something. That is where the callable capital 
comes in. The callable capital can only be called to pay the 
bonds.
    Mr. Perlmutter. Okay.
    Mr. Debevoise. It cannot be called just because the Bank 
wants to lend more money.
    Mr. Perlmutter. Alright. So, in that instance, wouldn't you 
want to know who the heck the money is going to, ultimately?
    Mr. Debevoise. Yes. And with IBRD, you know that 
absolutely. The borrower is a country and you know absolutely 
where that--
    Mr. Perlmutter. But you don't know within the country where 
it is going?
    Mr. Debevoise. You do not know every detail, but you have a 
lot of mechanisms for understanding how the money is being 
used. But I am not going to sit here and tell you that we--
    Mr. Perlmutter. Well, no.
    Mr. Debevoise. --know every penny. Money can be detoured. 
And we have had discussions about corruption, and that is an 
important agenda.
    Mr. Perlmutter. Thank you for your testimony.
    Chairman Cleaver. Thank you, Mr. Debevoise.
    The gentleman from Ohio, Mr. Gonzalez, is now recognized 
for 5 minutes.
    Mr. Gonzalez of Ohio. Thank you, Chairman Cleaver and 
Ranking Member Hill, for holding this crucial hearing to 
examine multilateral development institutions. And thank you to 
our panel.
    Properly focused, I think the Bank does help lift nations 
out of poverty while building a robust institutional integrity, 
and I think that is important. My fear is that instead of being 
focused on this task, the Bank has instead become an important 
tool for China to expand its ambitions.
    To that end, this week I introduced legislation to support 
the Administration's efforts to graduate China from IBRD 
lending. Currently, a country's potential graduation from IBRD 
lending stands at a gross national income (GNI) per capita 
level of $6,975. The Bank calculates China's GNI per capita as 
equivalent to over $9,000. But, according to the Center for 
Global Development, China has received $7.8 billion since 
crossing the graduation, the theoretical graduation threshold 
in 2016.
    So, my first question is, how do we even allow that to 
occur when you consider that China has the world's fastest 
super computer, the most powerful hypersonic wind tunnel, and 
the first quantum-secured satellite communication system? Why 
on earth should U.S. taxpayers be subsidizing that? And I will 
ask Mr. Debevoise.
    Mr. Debevoise. Thank you. This is a discussion that has 
been going on for a long time, going back to the Meltzer 
Commission, as I am sure you know. And there should be 
graduation for China, and the Bank has been, how do we say, 
flexible on that standard. But I believe that they are now on a 
track which is going to produce a winding down of this lending 
effort.
    But the point of the reforms--
    Mr. Gonzalez of Ohio. Excuse me for one second. How 
confident are you in that? Because the latest report I read 
suggests that China will graduate when China has decided that 
they are in fact a developed country, and they are leaving it 
to the borrower nations to determine that as opposed to 
anything else.
    Mr. Debevoise. I could be wrong, but I do not believe that 
is the case. But the historical argument that was used to 
justify this lending was that, in fact, the Chinese use it to 
acquire knowledge in key areas of interest to them. The 
counterargument, obviously, is go to the market and get the 
money if you want that knowledge.
    Mr. Gonzalez of Ohio. Right. But also--
    Mr. Debevoise. But the Bank does have development knowledge 
which is not available elsewhere. And, so, the answer to that 
is if you want the knowledge, pay for technical services; don't 
borrow.
    Mr. Gonzalez of Ohio. So, they have not graduated yet. We 
seem to be in agreement that they should. How do we get them to 
go from here to there, in your estimation? What is the best way 
to get them to graduate?
    Mr. Debevoise. I think it has to be peer pressure. The 
other countries in the institution need to have a rule, and 
they need to enforce it.
    Mr. Gonzalez of Ohio. Mr. McGuire, do you have a 
perspective on that?
    Mr. McGuire. I was going to say this is, I am sure, a topic 
of regular conversation with the board. We have a U.S. 
Executive Director who can be quite forceful on this and can 
move it forward. I know that one of the issues some other 
countries have had is that much of the lending--about half, I 
think, according to Charles' analysis is going towards public 
goods, like reducing their carbon emissions.
    Mr. Gonzalez of Ohio. Right.
    Mr. McGuire. And, so, other countries are supportive, but 
absolutely can be graduated. I think that is the appropriate 
place for the board to weigh in and our ED to push.
    Mr. Gonzalez of Ohio. Yes, because money is fungible, 
right? And, so, if we are lending at subsidized rates, and yes, 
these might be noble projects, but that means that China can 
use other dollars more effectively for their SOEs and to expand 
whatever their ambitions are.
    I want to focus on HR specifically for a second. Part of 
the issue I would argue has to do with leadership structure. 
Shaolin Yang, as an example, is a Chinese national who serves 
as the chief administrative officer, and is responsible for 
strategy, budget, and ethics. Do you see any issue with having 
someone from a country that deters its own people, restricts 
birthrates, and denies basic human rights to its people, not to 
mention what is happening in Hong Kong, Taiwan, and Tibet, as 
the head of the ethics department? Mr. Debevoise, do you see 
any issues with that? It just seems odd.
    Mr. Debevoise. Well, I happen to know the gentleman. He is 
an international civil servant. I have seen him in action. And 
I believe that the Bank generally functions that way. Once you 
become a bank official, you are not to be taking instructions 
from your home country. And I think if we believe in the 
multilateral system, we have to have faith in that.
    I agree with you that on the surface, it might look strange 
to some. But I believe that if the president believes that the 
person in the job is not doing the job, then the president of 
the Bank has the ability to suggest that person might be 
reassigned.
    Mr. Gonzalez of Ohio. Thank you. I think it is worth 
additional scrutiny, and I yield back.
    Chairman Cleaver. We are going to have a semi next round of 
questions. I will begin, and then yield to Mr. Perlmutter for 5 
minutes, and then the ranking member will have 5 minutes, as 
well.
    Mr. Hill. Don't forget Mr. Riggleman.
    Chairman Cleaver. Mr. Riggleman?
    Mr. Hill. Yes, who missed--
    Chairman Cleaver. Where is he?
    Mr. Hill. He was here, had been sitting here before.
    Chairman Cleaver. The late Mr. Riggleman--
    Mr. Hill. Well, he is not late. He is still alive.
    [laughter]
    Chairman Cleaver. --will also have an opportunity.
    I recognize myself for 5 minutes.
    Ms. Daar, earlier in the year, concerns were raised, 
appropriately, from my perspective, about the World Bank's 
proposed $100 million development project in Myanmar, where 
there is active and well-known ethnic cleansing taking place. 
And then, the New York Times, in an investigatory piece, 
reported that $50 million of World Bank funds marked for 
education had been linked to detention camps in a Chinese 
province.
    Are you aware of these incidents or alleged incidents? And 
if so, as the chairwoman of the Full Committee mentioned 
earlier, what kind of reforms can we put in place to make sure 
that we reduce, if not completely eliminate, these kinds of 
acts by bad actors?
    Ms. Daar. Thank you, Mr. Chairman. I think you raise an 
important point about added scrutiny, especially as the World 
Bank is increasing and looking to scale up its investments in 
fragile and conflict-afflicted states.
    In the case of Myanmar specifically, I am not aware of the 
details around one of the projects that you mentioned. I am 
aware of a proposed project in Rakhine State, and we have 
concerns around that project and want to make sure that no 
project is going to be financed that would result in the 
exclusion of certain communities. In this case, we are 
particularly concerned around Rohingya communities not being 
able to fully benefit from a project in Rakhine State.
    In terms of the kinds of reforms that can be made forward, 
I think a lot of scrutiny should be made. While there can be a 
lot of benefit brought from the World Bank engaging more in 
fragile and conflict-afflicted states, I think there should be 
a lot of scrutiny about how they will deal with governments 
that would be party--that are party to conflict especially.
    Chairman Cleaver. Yes.
    Ms. Daar. And I think enhanced and full transparency around 
where money is ending up is critical. That is why today, in my 
testimony, I pushed for full transparency and required 
disclosure of subprojects and financial intermediaries.
    Chairman Cleaver. Thank you. I have to agree with you 
strongly.
    Mr. Perlmutter is now recognized.
    Mr. Perlmutter. Thanks, Mr. Chairman.
    Mr. Kenny, I would like you to talk about the IFC's 
business model and whether or not you think they are capable 
and competent to enter into some of the riskier investments, 
and whether they are going to do this in IDA countries? I turn 
it over to you, sir.
    Mr. Kenny. Thanks very much, Congressman.
    The IFC has been trying and has previously made commitments 
that it would do more in IDA countries. To date, it has not 
delivered. In 2011, it said that 50 percent of its projects 
would be in IDA countries. The actual level is close to 24 
percent.
    As I mentioned in my testimony, I think that reflects not 
that the IFC is not trying reasonably hard; it is that there 
aren't very many projects that fit its model in those 
countries, and so it needs to change its model. And, of course, 
the private sector window that is taking money out of IDA and 
giving it to private firms has been sort of one part of their 
response.
    It has been called an experiment worth pursuing. I would 
say two things about that. One is, yes, sure, it is an 
experiment, but actually we have a fair amount of history when 
it comes to how to subsidize the private sector to deliver 
better. And, indeed, the World Bank has developed principles 
around how to subsidize the private sector in order to help it 
deliver better. The IFC is ignoring those principles in how it 
uses IDA's money, and I think it needs to stop doing that.
    The second part is that if it is an experiment worth 
pursuing, we need to know if the experiment worked. We will not 
know if the experiment worked if they are not a lot more 
transparent about what is going on.
    Mr. Perlmutter. Thank you. I yield back to the Chair.
    Chairman Cleaver. Thank you.
    The Chair now recognizes the ranking member, Mr. Hill.
    Mr. Hill. Thank you, Mr. Chairman.
    The Senate has included a capital increase for the Bank in 
the State Foreign Ops Appropriations Bill, and it appears that 
there is consensus that the World Bank lending will fall 
significantly without this U.S. contribution. And the 
credibility of the U.S. maintaining its leadership as the 
largest shareholder, failing to authorize the capital package 
might jeopardize the world's work for the most impoverishes 
countries and fragile states.
    I am interested, is there anyone on the panel today who 
would oppose the capital increase being approved? Would you 
raise your hand if you are opposed to the capital increase 
being approved?
    So, Mr. Chairman, our panel today all support the capital 
increase that is being proposed for the Bank. I find that 
interesting. I had not heard that this morning fully, so that 
is helpful.
    Ms. Daar. May I make a comment, respectfully?
    Mr. Hill. Yes.
    Ms. Daar. Thank you.
    Mr. Hill. Quickly, yes.
    Ms. Daar. Yes, sure. Just to say that I think what the 
consensus that I am hearing also is that there are a lot of 
reforms needed as the U.S. enters the negotiation and continues 
conversations around the general--
    Mr. Hill. Sure. We all support significant reforms, and I 
ticked off a few of those in my opening statement, and will put 
the rest of them in my opening statement for the record. I 
think the Bank has a lot of things it needs to do, and I am 
sure Mr. McGuire and Mr. Debevoise would agree with that.
    It was created in 1944. Today, is a different world. We 
have lifted poverty and living standards around the world. We 
were 50 percent of GDP in 1944. We are 18 percent of GDP now in 
the world, so there is a lot more that lots of countries can do 
to help alleviate poverty and increase development around the 
world. So, reforms are important.
    And that brings me to something that Larry Summers said 
recently, our former Treasury Secretary. Mr. Summers said that 
he was concerned about the fungibility of money. My friend from 
Ohio noted that. And he asked questions just specifically about 
China. He said, ``Let's apply that fungibility issue to China, 
which sits on $3 trillion in reserves.''
    If the World Bank is financing a project in China, why 
isn't Beijing doing the project anyway? And if the Bank does 
finance it, what are we doing permitting Beijing to otherwise 
spend its resources on it? So, aren't we funding the Belt and 
Road Initiative around the world--the Majority has put these 
charts up--by lending them $7 billion?
    Mr. Debevoise, do you want to tackle Mr. Summers' concern?
    Mr. Debevoise. Yes, indeed. Money is fungible, so from that 
perspective, it is the case.
    As I have said before, I think it is time for China to 
graduate, and it needs to wind down. Again, though, the Bank is 
an incredible repository of knowledge about--
    Mr. Hill. I know that, and I hear that all the time, and 
people who push back--
    Mr. Debevoise. And they should pay for it. That is the 
point. We should do fee-for-service.
    Mr. Hill. Yes, I agree.
    Mr. Debevoise. If they want the knowledge, they should pay 
for it.
    Mr. Hill. Yes, but technical assistance ideas is something 
we have developed over 7 decades, so why don't we convert it 
into a revenue stream for the Bank and not necessarily tie it 
to lending?
    Mr. Debevoise. Saudi Arabia does that. There is an example.
    Mr. Hill. Yes. Thank you.
    Mr. McGuire, based on your experience working in this 
important job, would you support the World Bank having lending 
conditionality on disclosure of any other sovereign debt to 
that country that has undisclosed terms or conditions? In other 
words, that we increase transparency.
    If we are going to lend money for a project in the Congo 
and we find that they have other sovereign loans, say from 
China or somewhere else that has undisclosed terms and 
conditions, should we make our lending through the IBRD 
conditional on knowing those terms? How do you collect the loan 
if you have--somebody else might have a first mortgage to be--
    Mr. McGuire. I hear that concern, but I don't think I would 
go down that path.
    Mr. Hill. Yes.
    Mr. McGuire. Because I think it could open up a Pandora's 
box of any number of other proposals to come forward and make 
the Bank's money less attractive to other countries.
    Mr. Hill. Right.
    Mr. McGuire. And I do think in all countries, you want the 
Bank there, because they are a very positive interlocutor in 
shifting the way that other countries operate and bring people 
out of poverty.
    Mr. Hill. But you do think the Bank should continue its 
efforts that are underway now to collect more transparency and 
inform the Third World countries, particularly, the poorest 
countries, about what a benchmark good loan looks like versus a 
bad loan. Is that fair?
    Mr. McGuire. Certainly. As advisors, and as those who are 
lenders themselves, you always want the countries to whom you 
are lending to be fully aware of all the parameters of their 
debt and to understand more of what they are up to, certainly.
    Mr. Hill. Thank you, Mr. Chairman. I yield back.
    Chairman Cleaver. Thank you.
    The Chair now recognizes Mr. Sherman from California for 5 
minutes.
    Mr. Sherman. When was the last time that the IBRD or any 
other unit of the World Bank made a loan to Iran?
    Okay. Nobody knows.
    Mr. Debevoise. I do not know the current answer. I can tell 
you what the situation was when I was the Chair, which was that 
there was no new lending to Iran.
    Mr. Sherman. Has the Bank done everything possible to call 
the loans that it made previously, or are they leaving those 
outstanding?
    Mr. Debevoise. To my knowledge, the Bank was not calling 
the loans to Iran.
    Mr. Sherman. Okay.
    Mr. Debevoise. They had--
    Mr. Sherman. And if they were to make a new loan--
    Mr. Debevoise. They are being paid down, to my knowledge.
    Mr. Sherman. Okay.
    Mr. Debevoise. But I am not--
    Mr. Sherman. So, they are being paid down, but Iran still 
benefits.
    The proponents of the Bank have testified here over the 
years that we would have an absolute veto over Iran getting 
loans, and then, they got the loans. Do we have a veto now, or 
could we be outvoted in the future?
    Mr. Debevoise. We have never had a veto on any--
    Mr. Sherman. I know. The previous experts and proponents of 
the Bank were lying to me then, and then that was--
    Mr. Debevoise. We have never had a veto. But I can tell you 
when I was the Chair, there was no new lending to Iran. And not 
only that, we managed to discourage disbursements on existing 
loans by reminding the Bank of their due diligence duties.
    Mr. Sherman. But there were actually--
    Mr. Debevoise. And eventually, task force actions--
    Mr. Sherman. --some disbursements--so, you say there are no 
new loans, but there were new disbursements while you were the 
Chair?
    Mr. Debevoise. No. There were none when I was there because 
we managed to convince the Bank--
    Mr. Sherman. Reclaiming my time, have there been 
disbursements since you left?
    Mr. Debevoise. I do not know the answer to that question.
    Mr. Sherman. Okay. We will try to find the answer to that.
    What policy can we have short of withdrawing from the Bank 
to make sure that no concessionary loans are given to China? 
Does anybody have any ideas?
    Mr. McGuire. I'm sorry. I am confused.
    Mr. Sherman. Okay. China benefits from this Bank, correct, 
the IMF?
    Mr. McGuire. Yes.
    Mr. Sherman. That is an attack on the security of the 
people of the United States.
    Mr. McGuire. I'm sorry, you mentioned the IMF?
    Mr. Sherman. Excuse me. I meant the World Bank.
    Mr. McGuire. Okay. We have talked quite a bit today about 
the graduation, China graduating out.
    Mr. Sherman. Right, and I regard that as insufficient. As 
long as China benefits one penny from this institution, it is 
an attack on the national security of the United States. What 
do we do so that we can still have a World Bank and make sure 
that not one penny of concessionary aid or loan goes to China? 
Does anybody have a plan for that?
    Mr. McGuire. I would say that one of the things we have to 
continue to do is operate according to a rules-based system. 
And when they exceed the income limits for further lending, 
we--
    Mr. Sherman. So you do not have a plan that--
    Mr. McGuire. I do.
    Mr. Sherman. Okay.
    Mr. McGuire. I do. And, so, we continue the graduation--
    Mr. Sherman. But your plan is not designed to be effective 
immediately.
    Ms. Daar. May I just respond on the concessionary--
    Mr. Sherman. Yes, because I know you are all--
    Ms. Daar. China does not receive, as far as I am aware, any 
concessionary aid from the World Bank. That is reserved 
strictly for the poorest countries.
    Mr. Sherman. But it does get loans from the World Bank on 
terms that are better than what's available in the commercial 
market. So, those who advocate the status quo can draw a 
distinction between better than the market and aid, but any 
normal person would say that it is certainly an aid to China 
when they are able to borrow money at costs lower than the 
commercial market would provide. But we can't engage in 
sophistry in an effort to tell us that everything is fine and 
we should approve all the money and don't worry about China's 
threat to American security.
    Is there anyone here who has a plan for how we can achieve 
the purposes of the World Bank and make sure that not one penny 
goes to China on any terms better than available in the 
commercial market?
    Mr. McGuire. I would say that the consideration that the 
U.S. ED, I am sure, is considering right now is that you cannot 
just isolate one set of rules for one country. All countries 
that move past--
    Mr. Sherman. We could adopt new rules and say either we do 
not participate in the Bank--that is option one. Or option two, 
any country that incarcerates over half a million people in 
East Turkmenistan or Xinjiang Province is ineligible for all 
World Bank loans. That could be a new rule. If we do not get 
acceptance of that rule, we can find other organizations that 
can take our money and help achieve the world's efforts to 
alleviate poverty. We do not have to put our money in an 
organization that subsidizes a threat to American national 
security.
    Mr. McGuire. What I--
    Mr. Sherman. But that is unthinkable in the conventional 
world, and my time has expired.
    Mr. McGuire. Can I--
    Chairman Cleaver. Thank you.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Riggleman.
    Mr. Riggleman. Thank you, Mr. Chairman, for calling this 
hearing today, and thank you for extending it a little bit for 
me because I think there is another hearing out there today 
that other people are interested in. But I am glad that we 
could be here today.
    I'm going to go pretty quickly here. Mr. Debevoise, your 
testimony described the posture of the U.S. towards MDBs as 
occasionally being tough love, and I know I am sort of 
following up on some of the questions that have already been 
asked here.
    I just want to get your opinion on what can we in Congress 
or the folks at Treasury do to ensure that the U.S. is not 
indirectly funding bad actors or illicit trade throughout the 
world?
    Mr. Debevoise. Historically, the way the subject has been 
approached has been through mandates. If the Congress believes 
that it wants to demonstrate its displeasure with lending to a 
particular economy or a particular structure, they have 
instructed the U.S. Executive Director on how to vote on that. 
But as the previous line of questioning showed, I do not think 
there is currently a mechanism for stopping things outright.
    Mr. Riggleman. Do you think some of those mandates could be 
increased transparency or additional requirements on exactly 
where those funds might be going?
    Mr. Debevoise. Transparency is a value that the United 
States has always advocated at the Bank, and I was a big 
advocate for it. I know that Mr. McGuire was when he was there. 
And, so, we can always benefit from that, I believe.
    Mr. Riggleman. Yes, I just returned from four countries I 
think everybody would find interesting. I just went to 
Honduras, and then to Panama, Argentina, and Peru. We were 
looking at some of the Chinese trade practices there, so I got 
to talk to a couple of presidents, the foreign ministries, and 
also the trade ministries there. I found it interesting that 
they--and I know this might surprise you--were a little opaque 
on some of their answers to the questions that I had, 
especially on the technical side.
    I think this is a very important issue, and my worry is--
what I really like about this subcommittee is that there are 
very thoughtful, somber people here. And I like that we try not 
to politicize it too much, believe it or not, on the National 
Security Subcommittee, and I think that is a testament to Mr. 
Cleaver's leadership.
    But I would be remiss in not talking about China. Tomorrow, 
we are voting on the Ex-Im Bank bill, where the SOE portions 
were removed, which I was in favor of, which was the addition 
now of some state-owned enterprises. Also, on emerging 
technologies, based on the fact that I just left as the Senior 
Consultant for Electronic Warfare and Countermeasures at the 
Pentagon, as you can probably guess, Asia was a huge priority 
for us.
    In that vein, I want to ask additional questions, but I 
want to make note of the World Bank's new leadership under 
David Malpass. There was a great deal of hand wringing by 
certain people, I believe from the left, but others seemed to 
have a shocking reaction to this. And I think, as we go forward 
on China, we have to take some of the politicization of this 
out of what we are doing because we are really in trouble here.
    In Peru, China is the number one trading partner. I was 
looking at some of the Tweets about David Malpass, and one 
which was pretty interesting to me, was from a senior fellow at 
the Center for Global Development, who wrote, ``David Malpass' 
disdain for the World Bank's mission of fighting global poverty 
rivals John Bolton's respect for the United Nations. There is 
no case for Malpass on merit.''
    That same senior fellow is also busy floating conspiracy 
theories about Malpass and Ukraine.
    Another one of the Center's senior fellows tweeted this 
about Malpass when he was nominated for the World Bank 
position: ``An incorrigible arsonist will now be our fire 
chief. The man spends his adult life denigrating 
multilateralism and now has the pleasure of running one of its 
pillars. When does it end?''
    All of these things were re-Tweeted by the Center's then-
communications director, a former Obama Administration 
official, who later left the Center to take a job with the New 
Hampshire Democratic Party.
    And I think when you see that kind of partisanship from the 
Center, it can be extremely disappointing, because Republicans 
and Democrats have benefitted from its testimony and research 
in the past years.
    I think these attacks on Malpass were especially silly 
given how much he has done at the World Bank to restore staff 
morale after the disastrous leadership of Jim Yong Kim, an 
Obama-nominated World Bank president whose failed 7-year tenure 
we are now supposed to conveniently erase from our memory. 
Well, we remember the World Bank President who came before 
David Malpass, and the staff of the World Bank certainly 
remembers.
    I urge the Center for Global Development to return to its 
core mission of rigorous research on development. When it 
strays into politics, it unnecessarily puts its reputation at 
risk.
    And, Mr. Chairman, without objection, I would ask for 
unanimous consent to enter into the record a New York Times 
investigation from 2014 showing how a foreign government paid 
for the Center to help influence policymakers in Washington. 
For me, it is very important that we keep those types of 
lobbying firms out of that.
    Chairman Cleaver. Without objection, it is so ordered.
    Mr. Riggleman. Thank you. I think it is very important for 
us to do that. And for those who want to take the time to read 
it, the article claims that Washington think tanks are for 
sale. Listen, this is what I have been doing for 26 years 
combined, in the military and also in intelligence work. I 
think it would vastly undermine the integrity of all those who 
work there if we continue to allow this to happen.
    I hope the Center can say no to foreign influence 
campaigns, and hopefully the kneejerk trashing of the 
Administration at this point when we have such an important 
task in front of us.
    Thank you, and I yield back the balance of my time.
    Chairman Cleaver. Thank you, Mr. Riggleman.
    Without objection, I would like to enter into the record a 
letter addressed to me and Mr. Hill from the Sub-Saharan 
African Executive Directors of the World Bank, who wanted to 
present their perspective--
    Mr. Kenny. Excuse me. Can I--
    Chairman Cleaver. --which has been represented.
    Mr. Kenny. --just reply briefly?
    Chairman Cleaver. Time has expired. I'm sorry.
    Without objection, it is so ordered.
    I would like to thank our witnesses for their testimony 
today.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    I would like to say as we conclude that you are the real 
Americans, the great Americans, whose symbol is here in this 
place, understanding that the most important thing going on, on 
Capitol Hill, was this committee hearing.
    [laughter]
    Feel comfortable in the fact that you are a great American 
for being here. This hearing is adjourned.
    [Whereupon, at 11:39 a.m., the hearing was adjourned.]

                            A P P E N D I X



                           November 13, 2019
                           
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               [all]
</pre></body></html>
